           DISTRIBUTION OF MAIL

                     EXECUTIVE SUMMARY
Our review of the distribution of mail found that it generally complied with applicable
guidance and was cost effective. We are making several recommendations to enhance
mail management, including: considering additional automation; promoting efficient use
of express mail methods; issuing updated mail guidance; establishing a mail site on the
Intranet; and providing additional information to mail room staff.


                                 BACKGROUND
The General Services Administration (GSA) issued guidance to agencies on Federal
Mail Management (41 Code of Federal Regulations, 101-9). The guidance requires the
agency head to designate a mail manager. This manager develops a mail cost control
program and a transition plan for automating mail procedures, among other
responsibilities. Commission mail policies and procedures are described in the Mail
Management regulation (SECR 22-1).

The Branch Chief of Publishing in the Office of Administrative and Personnel
Management (OAPM) is the Commission's mail manager. Approximately 15 staff and a
supervisor handle day-to-day distribution of mail in headquarters. Many of these staff
members are physically challenged.

According to OAPM, daily mail volume is approximately 800 pieces of express mail and
2500 pieces of regular and interoffice mail. Mail is delivered three times daily (10:30
a.m., 12:30 a.m., and 3:30 p.m.). At 4:30 p.m., outgoing mail not previously picked up is
taken to the post office.

OAPM indicated that mail volume has steadily increased over the years. The increase in
volume has made it difficult for mailroom staff to always provide timely mail delivery,
especially during peak periods.


                      SCOPE AND OBJECTIVES
Our objective was to determine whether the distribution of mail complied with applicable
guidance and was cost effective. During the review, we interviewed mail management
staff, observed the operation of the headquarters mailroom, reviewed relevant
documentation, and surveyed a judgment sample of headquarters staff.
                                                                                                                                                             Page 2


Our review also included mail distribution in the Operations Center and a field office. It
was performed between August and November 2000, in accordance with generally
accepted government auditing standards.


                                                            AUDIT RESULTS
We found that the distribution of mail generally complied with applicable guidance and
was cost effective. Our recommendations to enhance mail management are presented
below.

Automation
GSA's mail management guidance (see Background) requires the mail manager to
prepare a transition plan for automating mailing procedures. While a plan has not yet
been prepared, the mail manager indicated that the mailroom could automate some mail
processing functions (e.g., by acquiring a sorting machine). New automation equipment
might require enlarging the mailroom, where space is quite limited.


             Recommendation A
             OAPM should prepare the automation transition plan required by GSA. It should
             consider hiring a consultant to assist in developing the plan. If necessary, the
             mailroom should be enlarged when the plan is implemented.

Guidance

The Commission's mail management guidance was issued in 1985 and is out of date. It
does not reflect GSA's guidance, issued in 1994, and information in it is wrong (e.g., zip
codes, postal and express mail rates). OAPM should update the guidance.


             Recommendation B
             OAPM should update the mail management guidance (SECR 22-1).

Web Page
OAPM could improve access to mail guidance by implementing a mail web page on the
Intranet. The page could include Commission mail regulations, a link to the GSA mail
web site, and information on postal and express mail rates and procedures.

             Recommendation C
             OAPM should implement a mail web page on the Intranet, as discussed above.


Express Mail

__________________________________________________________________________________________________________________________________________________________________

Mail Distribution (Audit 324)                                                                                                              January 5, 2001
                                                                                                                                                             Page 3


Sixteen respondents to our survey indicated that they send express (overnight) mail on
Fridays, even though the mail will not be delivered until Monday, when the addressee's
building opens. Commission guidance discourages this practice because it is not cost
effective.

Express mail costs have increased by 43% between fiscal years 1997 and 2000, from
$278,238 to $397,382. Some portion of the increase may be due to unnecessary use of
express service. Employees may be unaware that cheaper alternatives can be as
effective under certain circumstances.

             Recommendation D
             OAPM should issue guidance describing less expensive alternatives for
             expedited mail service and when they are appropriate. The guidance should be
             posted on the Intranet mail web page (see above).


WORKSHOPS
Other agencies have improved their mail management through outreach efforts. For
example, the Department of Energy instituted a Mail Center outreach program to
increase employee awareness of mail procedures. This initiative resulted in annual
savings of $260,000. Similarly, the Department of Defense implemented annual Mail
Management workshops to train its employees.

             Recommendation E
             OAPM should hold mail management workshops for administrative contacts and
             other administrative staff. The workshops, which could be held during the annual
             administrative conference, would cover mail management procedures, including
             cost effective use of the mail.

EXPRESS MAIL DISTRIBUTION
Under current procedures, the Branch of Filer Support in the Office of Filings and
Information Services (OFIS) receives all misaddressed express mail. A Legal
Instruments Examiner in the branch reviews the mail to determine where it should be
sent. Much of the express mail it receives is not intended for OFIS, resulting in needless
delay of this time sensitive material. The distribution of mail to the proper office is a
function of the mailroom, not OFIS.

             Recommendation F
             OAPM should determine where misaddressed express mail should be sent,
             rather than sending it to OFIS. It should train an employee in document review
             or hire a Legal Instruments Examiner if necessary.




__________________________________________________________________________________________________________________________________________________________________

Mail Distribution (Audit 324)                                                                                                              January 5, 2001
                                                                                                                                                             Page 4




MAIL STOP NUMBERS
Many of our questionnaire forms were returned to the OIG headquarters office (mail stop
1107), rather than to the Operations Center, even though the envelopes had an
Operations Center stop (O-11A). One survey respondent indicated that their mail also
sometimes went to the wrong stop. Mailroom staff apparently become confused
because several offices have more than one mail stop, including the divisions of
Enforcement, Corporation Finance, and Investment Management, and the Office of
General Counsel.

             Recommendation G
             OAPM should tell the administrative contacts to post the mail stop number at the
             mail receiving point, if the office has multiple stops. It should also remind the
             mailroom staff to deliver mail to the stop indicated on the mail.
             .
EMPLOYEE LOCATOR
When the mailroom receives mail without a stop number indicated, the staff attempts to
determine the addressee's stop number. Because of frequent turnover and transfers
within the Commission, the phone book (which is updated annually) and the employee
locator on the Intranet may not be current. For example, we checked fifteen employees
hired before September 30, 2000. Three were not in the employee locator as of October
23, 2000.

If the employee cannot be readily located, mail delivery is delayed. A current listing of all
employees and their mail stop would help the mailroom and improve mail service.
OAPM informed us that the administrative contacts are required to update the employee
locator when their office has personnel changes.

             Recommendation H
             OAPM should remind the administrative contacts to update the employee locator
             promptly after personnel changes.




__________________________________________________________________________________________________________________________________________________________________

Mail Distribution (Audit 324)                                                                                                              January 5, 2001
